                                  Closeout for MOO070028

A former Program ~irector'informed us before she left NSF, that a PI^ allegedly failed
to provide accurate current and pending (C&P) support information in recent proposal
submissions.'" The Program Director wrote a letter to the subject requesting that he
clarify the alleged errors in the C&P Support Forms of these recent proposals.5 The
Program Director noticed that the subject's reply still contained apparent omissions. She
then sent the subject e-mail informing him of the option to withdraw one of the proposals.
The subject replied to her e-mail by agreeing to withdraw his NSF proposal.6 This action
prompted the Program Director to refer the case to OIG.~

Our comparison of the subject's C&P Support Forms, in both his recently declined and
pending proposals and his previous NSF awards, revealed 18 apparent omissions. A
letter was sent to the subject requesting clarification of the apparent omi~sions.~He
replied9with a detailed explanation of numerous administrative problems that have
plagued his office, and he made assurances that he personally had verified all the
information in this letter. Additionally, he submitted a revised C&P support list with     ,

exactly 18 entries. After analyzing each entry and confirming that there were no
additional apparent omissions, OIG contacted the subject's program assistant.1° She
corroborated the numerous instances of miscornrnunication between her and the subject,
her lack of experience in grant administration and management and her decisions to omit
certain grants, all of which led to the omissions in the subject's submissions to NSF. OIG
                                                         1
discussed the importance of submitting accurate information to NSF with the subject,"
and he is aware that this is his responsibility, not his program assistant's.

This case is closed and no fiu-ther action will be taken.




5
       Footnotes Redacted
6




                                          Page 1 of 1
